No.
IN THE SUPREME COURT OF THE UNITED STATES

ALFRED HAMMAN, ETC,
Petitioners(s)
v.
UNIVERSITY OF CENTRAL FLORIDA BOARD OF
TRUSTEES, ETC
Respondent
CASE NOS. FLSC 19-386 and 19-522
ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF FLORIDA

PETITION FOR A WRIT OF CERTIORARI

WILLIAM HENRY HAMMAN
WlLL@FREEWILL.ROCKS
ALFRED RISIEN HAMMAN
ALFRED@HAMMAN.NET
1209 N. WESTMORELAND DR.
ORLANDO, FL 32804
407-421-9323

Questions Presented
1) May we be denied procedural due process,
including extraordinary process, guaranteed through
the Constitution?
2)
May the judicial branch leave obvious
substantive due process abuses uncorrected?
3) In Carey v. Piphus, 435 U.S. 247 (1978), this
court set the bar for relief at the denial of 20 days of
statutory educational rights without the benefit of due
process and an appeal on the substance,
It also
identified that principals and school boards were
responsible for ensuring such.
UCF, Valencia State
College, and each public college and university in the
state are mandated to provide the Dual Enrollment
program which provides for eligible students to take
any level of college course and concurrently receive
high school credit.
Florida Statute 1007.271 makes
clear that the unique rights and protections afforded
to all high school students are extended to Dual
Enrollment students within the post-secondary
institution in a way that traditionally matriculating
students do not enjoy, and that the boards of each are
legally responsible for upholding and executing all
legislation in compliance with law.
This question is whether the president and boards for
each public post secondary institution, equipped with a
cadre of lawyers responsible for ensuring compliance
with law, should be held to the same standard as the
nations high school principals in Piphus.
4) Given the above seems to fit the general
description of child abuse, should the judicial branch
have protected the precious, time sensitive rights of
my son and all 1.5 million naive minors through the
i

provision of council, especially when such had been
prayed for with specificity numerous times?
5) May the defendant illegally change contested
policy mid-trial in ways which are also directly
prohibited by the Rules Regulating The Florida Bar to
defraud the court of it’s ability to deliver justice?
6) May Florida’s Supreme Court deny us the
rights granted under Gilliam v. State, 996 So.2d 956
(2008) which state that all prayers for relief are
prayers for relief in general and that their true nature
is contained in the pleadings and prayer, and
furthermore that the prayer should be acted upon in
it’s intention, not it’s caption?
7)
Having been denied every whistleblower
route he could find, my son set about the task of
whistleblowing to the next level of authority, the
courts.
Given that my son was just attempting to
coerce a Piphus hearing as a whistleblower who was
denied this critical democratic oversight mechanism,
should the court have acted accordingly in some
meaningful way in the clear interest of justice?
8) Should that interest of justice have given rise
to extraordinary cause for the court to act sua sponte?
9) Where a student is absolutely protected by
constitutional guarantees without utterance of their
names in school-level process, as in Piphus, shouldn’t
that student likewise be protected in the same
proceedings if they need to seek a Piphus hearing in a
court of law, especially upon any issue well pressed?
10) Should BakerHostetler have been DQ’d?
11) May a fair trial or reasonable ability to
appeal be said to be had when trial court never
discharged it’s responsibility and resolved the case?
ii

Parties to the Proceedings Below
The University of Central Florida (hereinafter UCF) is
the respondent in the case whose order dated May 30,
2019 we make timely challenge of for certiorari.
It has become apparent since proceedings finalized in
state court that the two original respondents to
proceedings below, UCF and Valencia State College,
were not only acting in coordination and concert but
that they were simply two of forty tentacles of the
same beast, as each of Florida’s remaining 38 public
colleges and universities are all involved in the same
fraud.
Bad actors should not profit from holding
someone off they are abusing with one tentacle while
abusing them with another, especially when those bad
actors are government agents with explicit ministerial
responsibility for performance of the act.
The way
that the true defendant’s legally authorized agents,
UCF & Valencia, defended the case by essentially
using ever-evolving bites at the same apple; it is clear
in the record that the true defendant is the state itself.
The above reality also renders a procedural
understanding of the true case against the true
defendant unintelligible without this because the two
cases unfolded contemporaneously and both are
required for a realistic understanding of the true case
and the true abuse inflicted.
Therefore we move that the case Hamman u. Valencia
State College be consolidated with the underlying
Hamman v. UCF and both be responded to by the true
defendant in the case, the State of Florida. UCF and
Valencia shall be served in addition to the governor
and attorney general.

iii

Table of Contents
Questions Presented..........................
Table of Contents...............................
Table of Authorities...........................
Petition for Writ Of Certiorari........
Opinions Below............ ......................
jurisdiction.........................................
Constitutional Provisions Involved,
Statement of the Case......................
Reasons for Granting the Writ........
Conclusion...........................................
Appendix A..........................................
Appendix B..........................................
Appendix C..........................................
Appendix D..........................................

iv

,1
IV

v
1
1
1
1
2
6
7
al
a2
a3
a4

Table of Authorities
Cases
i,7
Carey v. Piphus, 435 U.S. 247 (1978)
U.S. v. Prevezon Holdings LTD, 839 F.3d 227(2016)....3
Comcoa, Inc. v. Coe, 587 So.2d 474 (1991),
Gilliam v. State, 996 So.2d 956 (2008).....

4
4

Statutes
28 U.S.C. § 1257....................................
Rules Regulating The Florida Bar......
Florida Statute 1007.271.....................
Florida Rules of Civil Procedure 1.630

1
Passim
Passim
.......3,7

Constitutional Provision
U.S. Constitution 14th Amendment........ .

Passim

L

v

Petition for Writ Of Certiorari
I am denied procedural due process, extraordinary
process and equal protection of law guaranteed under
the 14th amendment of the Constitution of the United
States.
Therefore, I humbly petition this court for a
writ of certiorari to review the case in Florida state
court for uncorrected errors
Opinions Below
Opinions below are reprinted in the appendix

Jurisdiction
The petition for mandamus in Florida’s Supreme
Court was denied on May 30, 2019. I invoke this
Court's jurisdiction under 28 U.S.C., § 1257, having
timely filed this petition for a writ of certiorari within
ninety days of the order denying
Constitutional Provisions Involved
United States Constitution, Amendment XTV
“No State shall... deprive any person of life, liberty,
or property, without due process of law; nor deny to
any person within its jurisdiction the equal
protection of the laws.”
Introduction
In spring of 2016 my then-13 year old son presented to
both Valencia State College and UCF as legally
eligible for the Dual Enrollment program per Florida
1

Statute 1007.271(13).
At that time, both schools
fraudulently claimed on their web sites that Will did
not meet the bar for legal eligibility,
Also at that
time, Will presented the relevant statute to both.
UCF began fraud in the furtherance of the underlying
fraud in the meeting in spring 2016 in which UCF’s
counselor Cook misrepresented the state of law in
ways which are prohibited by the Rules Regulating
The Florida Bar.
(Florida has an integrated bar
whose rules have the force of law.) UCF’s fraud upon
the court continues to this day, having included lies
which are 100% indisputable in record and which
prejudicially abused our case in appeals court. UCF’s
fraud also includes having fraudulently used their
police force to defraud me of my right to attend UCF’s
board meeting which is open under the Florida’s
Sunshine law.
The effect is that my son Will has been denied the
explicit educational rights he is granted under FS
1007.271 for over three years,
The procedural due
process abuse of the denial of substantive due process
guarantees to education,.the willful and wanton malice
of the abuse, and the resulting injury are truly unique
amongst case history dating back to the Magna Carta.
Statement of the Case
In trial court Will initiated suit as declaratory
judgement seeking injunctive relief as a means of
getting the issue before the schools’ lawyers who would
immediately see the discrepancy and (we thought)
correct the illegal policies. They instead hired Baker
Hostetler within a week of their being disqualified
from representing Vladimir Putin through his cutout
2

Prevezon in U.S. v. PREVEZON HOLDINGS LTD,
839 F.3d 227 (2016) and they continued the exact same
behavior that had BakerHostetler DQ’d in Prevezon of
lying to the tribunal. So Will got serious and went to
the law library and it was obvious that the appropriate
form of relief was extraordinary relief in mandamus.
We approached the bench ex parte to bring a facially
sufficient petition for mandamus to the judges
attention per law. 16 year old Will spoke for himself
and was told that mandamus was equivalent to a writ
of replevin and that the petitions would not be read
until defendants served.
Will strenuously objected
over the microphone referring to Fla.R.Civ.P. 1.630
and cited case law he was attempting to hand the
Judge. At that time Will explained that proceedings
under 1.630 were ex parte and that he did have to
accept and consider what we were giving him. This
was not well received by the bench and Judge Weiss
issued the following order on May 4, 2018:
“A hearing on Defendant's Pending Motion to
Dismiss Plaintiffs Complaint for Declaratory
Judgment is already scheduled for May 23,2018.
The sufficiency of the pleadings will be determined
thereafter. Furthermore, ”[m]andamus is not a
favored remedy when controverted issues of fact
must be resolved. The Plaintiff is reminded to
serve documents and./or pleadings on opposing
counsel and provide a certificate of service.
Pet.
App. A
Motion for reconsideration was denied and we were
forced to attend that hearing on the motion to dismiss
the irrelevant Complaint for Declaratory Judgement
Record will show the abuses
referenced above.
3

cascaded in trial court further in that hearing, which
led to the petition for certiorari to appeals court
challenging the interlocutory order May 4, 2018.
The petition in appeals court contained numerous
independent grounds for certiorari as well as a claim
for mandamus and was perfected June 19th 2018 in
5D18-1797. It proved a prima facie case for relief and
was therefore granted when response was ordered on
June 27th. Pet. App. B Respondent did not respond
to a single enumerated claim nor could they be said to
quash procedurally, yet the court then inexplicably
denied the petition that they had already granted in
an unelaborated order.
Pet. App. C
This
unelaborated denial included the claim for mandamus
which was ministerially required to be granted under
Comcoa, Inc. v. Coe, 587 So.2d 474 (1991).
In Florida’s Supreme Court I was denied the
protection of Gilliam v. State, 996 So.2d 956 (2008)
which generalizes that all pleadings are prayers for
relief in general and should have been recaptioned if it
was the wrong relief sought.
It is also arguable that
the petition should have been acted upon prior to
ordinary procedures of law, which it was not.
And
that the claims for mandamus were ministerially due
under Comcoa.
More inexplicably, the Court’s order stated that the
facts should have been captioned and pled as an
appeal, but the case against UCF in trial court
remains undisposed to this day and the original
facially sufficient petition for mandamus lies
unresolved over a year later,
And the reason we
approached the appeals trial court with UCF is that
they committed fraud upon the court by illegally
4

changing the disputed policy during trial just enough
to gas-light us, which we raised in 5DCA-2806.
But
the trial court case sits open with that current fraud
How could proper
upon the court left unresolved,
appellate procedures ever occur?
Furthermore, the case(s) leave abused the substantive
rights of 1.5 million minors currently in grades 6-12.
The most explicit is proven in less than three dozen
words all hosted on state servers. The following is a
quote from our Petition in FI Supreme Court SC 19-522
“

POINTS OF FACT
Point of Fact #1 - UCF requires proof of a 3.8
GPA for participation in the Dual Enrollment
program for all students, including home
education students
POINTS OF LAW
Point of Law # 1 - Florida Statute 1007.271(13)
(b)(2) states that:
“A high school grade point average may
not be required for home education
students who meet the minimum score on
a common placement test adopted by the
State Board of Education which indicates
that the student is ready for college-level
coursework”
COMMON LANGUAGE ARGUMENT
One single point of incontrovertible fact and one
single point of law show clear conflict. Home
education students are defrauded of their right
to participate in the Dual Enrollment program
5

granted per Florida Statute 1007.271(13)”
SC19-522 at pg2
This obvious substantive due process abuse was
pressed extensively throughout, including being raised
in trial court vs. UCF citing the 14th amendment
14th amendment rights to
guarantees by name,
procedural due process and equal protection under the
law were also raised throughout

Reasons for Granting the Writ
a)
The writ should grant for issues of fundamental
legal significance.
al) The Court should end the fraudulent abuse
of due process and equal protection under the law
guaranteed under the 14th Amendment.
a2)
The Court should affirm and clarify the
position which oversight holds and requires in this
great American experiment
a3)
The Court should end persistent willful
abuse of my son which is historic, unique, malicious,
and unconstitutional.
a4) The Court should not allow fraudsters to
benefit from defrauding the legal system itself
b)
The writ should grant because this is an
important issue affecting a class of 1.5 million
children, each child in grades 6-12 in the state. Their
abuse is likewise historic and upon their precious
rights which have a shelf life after which the obvious
abuse can not be corrected. Each of these people and
their parents are naive to the injury they suffer and
6

should these efforts fail, their abuse will go back into
the dark
c)
The writ should grant to coerce Florida to
correct all the case law which now conflicts with
controlling precedent concerning extraordinary
procedure.
For instance, in the Ninth Circuit a
defendant would have precedent to challenge a
petition for mandamus which wasn’t served upon them
prior to the grant of the writ which is in direct
opposition to Florida Rules of Civil Procedure 1.630, in
the Fifth DCA an unanswered petition for mandamus
may be denied after a prima facie showing for relief,
and Circuit judges don’t actually have to resolve and
discharge a case.
d)
The writ should grant because state court was
clearly wrong in their application of law.
e)
The writ should grant because my son deserves
his Piphus hearing. The merits should be decided.

Conclusion
The petition for a writ of certiorari should be granted.
Respectfully submitted,
William Henry Hamman
Alfred Risien Hamman

7

